HHS/OIG, Audit -"Review of Pension Costs Claimed for Medicare Reimbursement by
Premera Blue Cross for Fiscal Years 1996 Through 2004,"(A-07-05-00192)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare
Reimbursement by Premera Blue Cross for Fiscal Years 1996 Through 2004," (A-07-05-00192)
July 3, 2006
Complete
Text of Report is available in PDF format (368 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine the allowability of pension costs that Premera
claimed for Medicare reimbursement for fiscal years (FYs) 1996 through 2004.  We
found that Premera did not claim all pension costs that were allowable for Medicare
reimbursement for FYs 1996 through 2004 because it did not claim pension costs in accordance
with the Medicare contract.  Premera underclaimed $36,923 of allowable pension costs.  We
recommended that Premera revise its Final Administrative Cost Proposals to claim allowable
Cost Accounting Standards pension costs of $36,923 for FYs 1996 through 2004.  Premera
concurred with our recommendation.